Audit Report




OIG-12-017
SAFETY AND SOUNDESS: Material Loss Review of Superior
Bank
November 16, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Causes of Superior’s Failure .......................................................................         3
    High Concentration in CRE, Construction, and Land Loans .........................                          3
    Ineffective Credit Risk Management ........................................................                3
    Inadequate Capital Levels ......................................................................           4
    Untimely Reclassification of Deteriorating Loans .......................................                   5
    Decline in Superior’s Real Estate Markets ................................................                 6

  OTS’s Supervision of Superior. ...................................................................           6
    OTS Was Not Timely in Requiring Superior to Establish
    Concentration Limits .............................................................................        8
    OTS Did Not Require Superior to Maintain Higher Levels of Capital .............                           9
    OTS’s Use of PCA and Enforcement Actions ............................................                    10
    OTS’s Internal Failed Bank Review………………………………………………....                                                  11

Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................                13
  Appendix    2:      Background........................................................................     15
  Appendix    3:      Management Response ......................................................             18
  Appendix    4:      Major Contributors to This Report .........................................            19
  Appendix    5:      Report Distribution ..............................................................     20

Abbreviations

  ALLL                allowance for loan and lease losses
  CRE                 commercial real-estate
  CRP                 capital restoration plan
  FDIC                Federal Deposit Insurance Corporation
  MOU                 memorandum of understanding
  MRBA                matter requiring board attention
  OCC                 Office of the Comptroller of the Currency
  OIG                 Treasury Office of Inspector General
  OTS                 Office of Thrift Supervision
  PCA                 prompt corrective action
  ROE                 report of examination
  TARP                Troubled Asset Relief Program
  TFR                 thrift financial report




                      Material Loss Review of Superior Bank (OIG-12-017)                                   Page i
         This Page Intentionally Left Blank




Material Loss Review of Superior Bank (OIG-12-017)   Page ii
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                       November 16, 2011

                       John G. Walsh,
                       Acting Comptroller of the Currency

                       This report presents the results of our material loss review of the
                       failure of Superior Bank (Superior) of Birmingham, Alabama, and of the
                       former Office of Thrift Supervision’s (OTS) supervision of the
                       institution. We are providing the results of this review for your
                       information since the Office of the Comptroller of the Currency (OCC)
                       assumed regulatory responsibilities for federal savings associations
                       pursuant to P.L. 111-203. OTS closed Superior and appointed the
                       Federal Deposit Insurance Corporation (FDIC) as receiver on April 15,
                       2011. This review is mandated by section 38(k) of the Federal Deposit
                       Insurance Act because of the magnitude of Superior’s estimated loss
                       to the Deposit Insurance Fund. 1, 2 As of September 30, 2011, FDIC
                       estimated a loss of $290 million to the Deposit Insurance Fund and a
                       loss of $40 million to the Debt Guarantee Program (DGP). 3

                       Our objectives were to determine the causes of Superior’s failure;
                       assess OTS’s supervision of Superior, including implementation of the
                       prompt corrective action (PCA) provisions of section 38; and make
                       recommendations for preventing such a loss in the future. To
                       accomplish these objectives, we reviewed the supervisory files and
                       interviewed officials at OTS and FDIC. We conducted our fieldwork

1
  Section 38(k) defines a loss to the Deposit Insurance Fund as material if it exceeds $200 million for
  calendar years 2010 and 2011.
2
  Certain terms that are underlined when first used in this report, are defined in Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the Treasury
Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Documents/oig11065%20(508).pdf
3
  A component of FDIC’s Temporary Liquidity Guarantee Program, FDIC established DGP as a limited
emergency guarantee facility. Under the program, FDIC, upon application by an entity and approval by
FDIC, guaranteed newly issued senior unsecured debt of banks, thrifts, and certain holding companies.
Entities that participated in DGP were required to notify FDIC of any guaranteed debt issuance(s) and to pay
the associated assessment premiums. For most insured depository institutions and other entities
participating in DGP, the program concluded on October 31, 2009, with the FDIC’s guarantee expiring no
later than December 31, 2012.


                       Material Loss Review of Superior Bank (OIG-12-017)                         Page 1
                      from May 2011 through June 2011. Appendix 1 contains a more
                      detailed description of our review objectives, scope, and methodology.
                      Appendix 2 contains background information on Superior’s history and
                      OTS’s assessment fees and examination hours.

                      In brief, Superior failed because of its high-risk concentration in
                      commercial real estate (CRE), construction, and land loans; ineffective
                      credit-risk management; inadequate capital levels; and the untimely
                      reclassification of deteriorating loans. In addition, the growth in the
                      thrift’s high-risk lending occurred in areas that suffered significant
                      economic downturns, particularly the Florida market. With respect to
                      supervision, OTS became the primary federal regulator of Superior in
                      October 2005. 4 OTS did not take timely action to mitigate the risks
                      associated with the thrift’s higher-risk lending concentrations, which
                      OTS first identified when conducting an eligibility examination of
                      Superior for a thrift charter. After granting its charter, OTS was not
                      timely in requiring Superior to establish concentration limits, and did
                      not require the thrift to maintain higher levels of capital. However, as
                      Superior’s capital levels declined, OTS imposed PCA restrictions on
                      the thrift and took enforcement action. In light of the transfer of OTS
                      functions to other federal banking agencies on July 21, 2011, we are
                      not making any recommendations as a result of our material loss
                      review of Superior.

                      We referred certain matters involving Superior’s financial reporting to
                      the Treasury Inspector General’s Office of Investigations. Although
                      this report addresses the section 38(k)-mandated areas of review, we
                      were unable to fully assess certain aspects of Superior’s financial
                      reporting. In this regard, we obtained the workpapers through the
                      issuance of an Inspector General subpoena to Superior’s independent
                      auditor. Once we have reviewed those documents, we intend to issue
                      a subsequent report should any significant matters arise from our
                      review.

                      We provided OCC with a draft of this report for its review. In a written
                      response, which is included as appendix 3, OCC did not provide
                      specific comments on the report contents.


4
 The Board of Governors of the Federal Reserve System was the primary federal regulator of Superior
before OTS.


                      Material Loss Review of Superior Bank (OIG-12-017)                       Page 2
Causes of Superior’s Failure
                        High-Risk Concentration in CRE, Construction, and Land Loans

                        OTS defined a concentration as a group of similar types of assets or
                        liabilities that, when aggregated, exceeded 25 percent of a thrift’s
                        risk-based capital (core capital plus allowance for loan and lease losses
                        (ALLL). 5 Concentrations pose risk because negative events affecting
                        overly concentrated groups of assets can have a highly detrimental
                        impact on the institution.

                        Superior maintained high concentrations in CRE, construction, and
                        land loans as its assets grew from nearly $1.4 billion in December
                        2005 to approximately $3.2 billion by December 2009. As of
                        June 30, 2005, CRE, construction, and land loans were 189 percent,
                        211 percent, and 25 percent of total risk-based capital, respectively.
                        Concentrations in CRE and construction loans remained high, and
                        grew in land loans. As of December 31, 2009, CRE, construction, and
                        land loans were 289 percent, 122 percent, and 113 percent of total
                        risk-based capital, respectively.

                        When the real estate market began to deteriorate in 2007, Superior’s
                        loan portfolio, especially the loans originated at or near the peak of the
                        market, suffered significant credit deterioration, resulting in a
                        substantial volume of problem loans, and significant loan losses. In
                        turn, these loan losses diminished earnings and capital, ultimately
                        leading to Superior’s failure.

                        Ineffective Credit Risk Management

                        Superior’s board and management were not timely in establishing
                        concentration limits as required by OTS regulation and guidance. In
                        December 2006, OTS issued CEO Letter No. 252 which included OTS
                        guidance entitled “Concentrations in Commercial Real Estate Lending,
                        Sound Risk Management Practices,” to clarify that thrifts actively
                        engaged in CRE lending should (1) assess their concentration risk and
                        (2) implement appropriate risk management policies to identify,
                        monitor, manage, and control their concentration risks. The guidance,
                        also reinforced OTS’s regulation that requires thrifts to adopt and

5
    OTS New Directions Bulletin 06-14, “Concentrations of Risks,” November 28, 2006.


                        Material Loss Review of Superior Bank (OIG-12-017)               Page 3
                       maintain written policies that establish appropriate limits and
                       standards for extensions of credit that are secured by liens on or
                       interests in real estate, including CRE loans. 6

                       OTS stated in its 2009 report of examination (ROE) that Superior’s
                       board and management did not establish concentration limits as
                       required by OTS guidance and the failure to establish prudent risk
                       limits was an unsafe and unsound condition. To address an OTS
                       corrective action included in the 2009 ROE, Superior management
                       subsequently established percentages; however, OTS stated in its
                       2010 ROE that management should have considered lower, more
                       prudent limitations.

                       Inadequate Capital Levels

                       Superior’s capital levels were inadequate to support its significant
                       exposure to loans with higher levels of credit risk. According to the
                       OTS Examination Handbook, thrifts that engage in higher-risk activities
                       require more capital, especially if the activities are conducted at
                       significant concentration levels. 7

                       From 2006 to the fourth quarter of 2008, Superior’s capital levels
                       were just above well-capitalized under PCA requirements, ranging from
                       10.95 percent to 10.10 percent of total risk-based capital. In the
                       fourth quarter of 2008, Superior received $65.5 million from the
                       Department of the Treasury’s Troubled Asset Relief Program (TARP), 8
                       which increased its capital ratios from 10.10 percent of total risk-
                       based capital as of September 30, 2008, to 12.15 percent as of
                       December 31, 2008. However, these levels proved to be inadequate
                       as OTS examiners noted in their 2009 ROE that the capital levels were
                       not sufficient to support the inherent credit and concentration risks in
                       its loan and investment portfolios.

                       Due to Superior’s continuing loan losses from its deteriorating loan
                       portfolio, its capital level began to rapidly decrease, falling to10.69
                       percent of total risk-based capital as of December 31, 2009; to 8.85
                       percent as of June 30, 2010; and to 5.04 percent as of

6
  12 CFR 560.101, Real Estate Lending Standards.
7
  OTS Examination Handbook, Section 120, Capital, November 2003.
8
  As part of the scope of our audit, we did not review OTS’s process in reviewing Superior’s application for
the receipt of TARP funding.


                       Material Loss Review of Superior Bank (OIG-12-017)                         Page 4
September 30, 2010. Based on these percentages as reported in its
thrift financial reports (TFR), Superior was adequately capitalized
under PCA requirements as of June 30, 2010; and significantly
undercapitalized as of September 30, 2010. Three months later,
Superior was critically undercapitalized, based on its December 31,
2010, TFR, which reported its capital as 1.03 percent of total risk-
based capital. According to OTS documentation, Superior’s
management and board were unsuccessful in their efforts to raise
capital during 2010 and 2011.

Untimely Reclassifications of Deteriorating Loans

Superior’s management did not reclassify loans as adversely classified in
a timely manner as the thrift’s loan portfolio deteriorated in 2008.
According to OTS’s 2009 ROE, testing of 95 loans revealed that 11
loans, totaling $91.1 million, were not adversely classified when they
should have been. For these 11 loans, thrift management asserted to OTS
that the loans in question were not troubled as third-party guarantors
were making payments on the loans. However, OTS examiners noted in
the ROE that various characteristics of these loans, including delay or
impairment in the original source of repayment and extension of loan
maturity dates, warranted adverse classifications. Although OTS noted
that payments were being received by the third-parties, OTS stated in the
ROE that the “alternate sources were not sufficient to repay the principal
balance of the loan in a reasonable time period.”

Superior’s management disagreed with OTS’s assessment and was
supported by its independent auditor. Superior’s management continued
to disagree with OTS until the latter part of 2010 when, based on
independent third party loan reviews required by OTS and outside
investor groups, the thrift’s management began taking action to recognize
the credit risk in the portfolio. In response to these reviews, adversely
classified loans reported by the thrift increased from $362 million as of
December 31, 2009, to $629 million as of September 30, 2010, an
increase of almost 74 percent.




Material Loss Review of Superior Bank (OIG-12-017)            Page 5
                      Furthermore, although Superior received the results of the third party loan
                      review in March 2010, management did not use the report findings and
                      information in preparing its TFRs for the quarters ended March 31 and
                      June 30, 2010. 9 Management also did not inform OTS until September
                      28, 2010, that it had received the third party review. OTS examiners
                      stated in the 2010 ROE that by failing to classify assets correctly in the
                      TFR and also in its filings with the Securities and Exchange Commission,
                      Superior’s management materially misstated the financial condition of the
                      thrift, resulting in a violation of OTS regulations, which requires accurate
                      reporting of financial conditions. 10 OTS examiners also noted in their
                      2010 ROE that management’s efforts to work with its borrowers in hopes
                      of a more immediate market rebound had instead resulted in delayed loss
                      recognition and reporting of the true credit exposure in Superior’s loan
                      portfolio.

                      This matter involving Superior management’s failure to use the third party
                      loan review findings in its TFR filings for March 31 and June 30, 2010,
                      has been referred to the OIG Office of Investigations.

                      Decline in Real Estate Markets

                      Superior concentrated its lending activities throughout the rapidly
                      growing Alabama and Florida real estate markets. These areas
                      included Tampa, Sarasota, and the panhandle area of Florida and the
                      Huntsville and Birmingham areas of Alabama. However, due to
                      economic declines, Superior’s borrowers were unable to repay many
                      of these high-risk loans, which contributed to Superior’s deteriorating
                      financial condition. According to OTS’s 2009 ROE, the significant
                      increases in Superior’s non-performing and classified assets were
                      primarily due to the deterioration of its CRE loans along the Gulf Coast
                      area of Florida.

OTS’s Supervision of Superior
                      OTS did not take timely action to mitigate the risks associated with
                      the thrift’s higher-risk lending concentrations. However, as Superior’s

9
  The third party loan review provided an estimate of probable cumulative loss from 2010 through 2012,
based on prevailing market factors as of March 1, 2010, and using loan balances as of December 31,
2009. Based on the agreed upon procedures and methodology utilized, the probable cumulative loss
calculated was $210 million.
10
   12 CFR 563.170, Examinations and Audits; Appraisals; Establishment and Maintenance of Records.


                      Material Loss Review of Superior Bank (OIG-12-017)                       Page 6
                    capital levels declined, OTS imposed PCA restrictions on the thrift and
                    took enforcement action.

                    Table 1 summarizes the results of OTS’s safety and soundness and
                    limited examinations of Superior from 2005 until its closure in April
                    2011. Generally, matters requiring board attention (MRBAs) represent
                    the most significant items reported in ROE requiring corrective action.

   Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against Superior Bank
                                                   Examination Results
Date                                                   No. of              Informal/formal
started/date Total assets     CAMELS       No. of      recommendations/    enforcement
completed     (in $ billions) rating       MRBAs       corrective actions  actions
7/11/2005         $1.4        None           None          2               None
8/26/2005
Limited
examination
–thrift
eligibility
examination
11/3/2005         $1.4        2/222333       None          None            None
11/3/2005
Limited
examination
5/1/2006          $1.4        None           None          None            None
5/5/2006
Limited
examination
9/18/2006         $1.8        2/222312       None          3               None
12/15/2006
Full-scope
examination
1/31/2008         $2.9        2/232222       None          2               None
4/24/2008
Full-scope
examination
6/22/2009         $3.1        3/343322       8             13              Memorandum of
11/18/2009                                                                 understanding
Full-scope                                                                 (MOU), an
examination                                                                informal
                                                                           enforcement
                                                                           action, issued
                                                                           1/29/2010




                    Material Loss Review of Superior Bank (OIG-12-017)                       Page 7
    Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against Superior Bank
                                                    Examination Results
 Date                                                   No. of              Informal/formal
 started/date Total assets     CAMELS       No. of      recommendations/    enforcement
 completed     (in $ billions) rating       MRBAs       corrective actions  actions
 4/26/2010          $3.3         4/444422       2             None                Notice of ratings
 7/19/2010                                                                        downgrade and
 Limited                                                                          notice of troubled
 examination                                                                      condition issued
                                                                                  6/15/2010. At
                                                                                  that date,
                                                                                  CAMELS ratings
                                                                                  assigned were
                                                                                  4/443422.
 10/12/2010         $3.2         5/555554       13            15                  Cease and Desist
 2/7/2011                                                                         Order, a formal
 Full-scope                                                                       enforcement
 examination                                                                      action, issued
                                                                                  11/2/2010

                                                                                  PCA notices
                                                                                  issued 12/8/2010
                                                                                  and 2/25/2011
Source: Office of Inspector General (OIG) Analysis of OTS data.

                       OTS Was Not Timely in Requiring Superior to Establish Concentration
                       Limits

                       As discussed above, while OTS’s regulation and guidance requires
                       thrifts to adopt and maintain written policies that establish appropriate
                       concentration limits for loans that are secured by real estate,
                       Superior’s board and management did not establish such limits in a
                       timely manner. OTS noted that Superior held a higher level of
                       nonhomogeneous loans 11 compared to thrifts of similar size in August
                       2005 when it completed an eligibility examination prior to approving
                       Superior’s conversion to an OTS-regulated thrift. For example, as of
                       June 30, 2005, CRE loans were 189 percent and construction loans
                       were 211 percent of total risk-based capital, respectively. However,
                       OTS did not require Superior to establish concentration limits until its
                       2009 ROE, 4 years later. (As discussed earlier, OTS found in its 2010
                       examination that the limits established by management were too


11
   Superior’s nonhomogeneous loans consisted of multifamily, nonresidential real estate loans, construction
loans, land loans, and nonmortgage commercial loans.


                       Material Loss Review of Superior Bank (OIG-12-017)                         Page 8
high.). We believe OTS erred by not requiring limits be established as a
condition for approving Superior’s thrift charter.

OTS Did Not Require Superior to Maintain Higher Levels of Capital

As discussed above, from 2006 through the third quarter of 2008
Superior’s capital levels were just above well-capitalized. Despite
receiving TARP funds in the fourth quarter of 2008, OTS examiners
noted in their 2009 ROE that the thrift’s capital levels were not
sufficient to support the inherent credit and concentration risks in its
loan and investment portfolios. Superior’s capital level began to rapidly
decrease in 2010, falling from 10.69 percent of total risk-based
capital as of December 31, 2009, to 5.04 percent and becoming
significantly undercapitalized as of September 30, 2010. Only 3
months later, Superior became critically undercapitalized as of
December 31, 2010, with a capital level of 1.03 percent of total risk-
based capital.

According to section 120 of the OTS Examination Handbook, thrifts
that engage in higher-risk activities require more capital, especially if
the activities are conducted at significant concentration levels.
Additionally, as discussed in section 080, Appendix A, Enforcement
Actions, even when savings associations are well capitalized or
adequately capitalized under PCA statute and regulation, OTS may
exercise other authority to restrict an association’s operations when
capital levels are not commensurate with balance sheet risk, such as
imposing an individual minimum capital requirement. OTS examiners
noted in their 2008 ROE that Superior’s capital margins, although
exceeding the well capitalized threshold, were nevertheless thin in
light of the thrifts higher-risk concentrations. OTS did not require the
thrift to hold additional capital.

We did not interview the examiners responsible for the 2005 through
2008 full-scope examinations about whether they considered imposing
an individual minimum capital requirement as they were no longer OTS
employees. However, the OTS examiner responsible for the 2006
limited examination, along with the examiners responsible for the
2009 and 2010 full-scope examinations, told us that higher levels of
capital may have minimized the loss to the Deposit Insurance Fund.
The examiner for the 2006 limited examination further noted that




Material Loss Review of Superior Bank (OIG-12-017)                Page 9
higher levels of capital may also have restrained Superior’s higher-risk
lending concentrations as it grew its loan portfolio, starting in 2006.

OTS’s Use of PCA and Enforcement Actions

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take certain
actions when an institution’s capital drops to certain levels. Regulators
also have flexibility to supervise institutions based on criteria other
than capital levels to help reduce deposit insurance losses caused by
unsafe and unsound practices.

As Superior’s capital levels declined, OTS imposed PCA restrictions on
the thrift and took enforcement action. Specifically, OTS took the
following key actions:

    •   On January 29, 2010, OTS issued an MOU, which, among
        other things, required that the board (a) submit a written capital
        plan; (b) revise the written policies and procedures for managing
        the risks associated with concentrations of credit to address
        deficiencies noted in its 2009 ROE and to ensure compliance
        with OTS’s regulations and guidance; and (c) within 30 days
        after the close of each calendar quarter, beginning with the
        quarter ending June 30, 2010, review the appropriateness of
        established concentration limits and the thrift’s compliance with
        the credit concentration program.

    •   On June 15, 2010, OTS notified the board that the thrift was in
        troubled condition.

    •   On November 2, 2010, OTS issued a Cease and Desist Order,
        which, among other things, required that Superior: (a) maintain
        a Tier 1 capital ratio equal to or greater than 10 percent and
        total risk-based capital equal to or greater than 14 percent;
        (b) not originate or purchase any new CRE, construction, or land
        loans; and (c) revise its written program for identifying,
        monitoring, and controlling risks associated with concentrations
        of credit to address weaknesses noted in OTS’s 2010 ROE, and
        to ensure compliance with OTS’s regulations and guidance.




Material Loss Review of Superior Bank (OIG-12-017)              Page 10
    •   On December 8, 2010, OTS notified the board that Superior
        was deemed significantly undercapitalized based on its TFR for
        the quarter ended September 30, 2010. This was the first
        quarter that Superior fell below the adequately capitalized level.
        OTS further required Superior to file a Capital Restoration Plan
        (CRP) by December 14, 2010.

    •   On December 21, 2010, OTS notified the board of its receipt of
        the board’s CRP on December 16, 2010. However, OTS did not
        approve the CRP and requested additional information by
        January 21, 2011.

    •   On January 18, 2011, OTS granted an extension of the due
        date for the additional information relating to the CRP to
        February 7, 2011.

    •   On February 25, 2011, OTS notified the board that Superior
        was deemed critically undercapitalized based on its TFR for the
        quarter ended December 31, 2010, which reported its capital
        level as 1.03 percent of total risk-based capital.

    •   On April 15, 2011, OTS exercised its authority to close the
        thrift and appointed FDIC as receiver. The action was 49 days
        after Superior was deemed critically undercapitalized and within
        90-day PCA requirement.

OTS’s Internal Failed Bank Review

In accordance with its policy, OTS conducted an internal failed bank
review of Superior and similarly concluded that the thrift’s failure
resulted primarily from loan losses in higher-risk concentrations in
CRE, construction, and land loans. OTS further concluded that the
decline in Alabama and Florida real estate values and economies
contributed significantly to the loan losses at the thrift; and
recommended that supervisory staff consider higher capital
requirements as well as limitations on higher-risk lending
concentrations.




Material Loss Review of Superior Bank (OIG-12-017)               Page 11
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-5776 or J. Mathai, Audit Manager, at
(202) 927-0356. Major contributors to this report are listed in
appendix 4.



/s/
Susan Barron
Audit Director




Material Loss Review of Superior Bank (OIG-12-017)           Page 12
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Superior Bank (Superior),
                        of Birmingham, Alabama, in response to our mandate under section
                        38(k) of the Federal Deposit Insurance Act. 12 This section provides
                        that if the Deposit Insurance Fund incurs a material loss with
                        respect to an insured depository institution, the inspector general
                        for the appropriate federal banking agency is to prepare a report to
                        the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        The law also requires the inspector general to complete the report
                        within 6 months after it becomes apparent that a material loss has
                        been incurred.

                        We initiated a material loss review of Superior based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which was $259.6 million at the date of its failure on April 15,
                        2011. As of September 30, 2011, FDIC’s estimated losses were
                        $290 million to the Deposit Insurance Fund and $40 million to the
                        Debt Guarantee Program.

                        Our objectives were to determine the causes of Superior’s failure;
                        assess the Office of Thrift Supervision’s (OTS) supervision of the
                        thrift, including implementation of the PCA provisions of section
                        38; and make recommendations for preventing such a loss in the
                        future. To accomplish our review, we conducted fieldwork at
                        OTS’s headquarters in Washington, D.C. and interviewed OTS’s
                        southeast region officials in Atlanta, Georgia. We conducted our
                        fieldwork from May 2011 through June 2011.

                        To assess the adequacy of OTS’s supervision of Superior, we
                        performed the following work:



12
     12 U.S.C. § 1831o(k).


                        Material Loss Review of Superior Bank (OIG-12-017)              Page 13
Appendix 1
Objectives, Scope, and Methodology




•   We determined that the period covered by our audit would be
    from July 2005, through the thrift’s failure on April 15, 2011.
    This period included an OTS limited-scope eligibility examination
    for a thrift charter, 4 full-scope safety and soundness
    examinations, and 3 limited-scope examinations of Superior.

•   We reviewed OTS’s supervisory files and records for Superior
    from 2005 through 2011. We analyzed examination reports,
    supporting workpapers, and related supervisory correspondence
    to gain an understanding of the problems identified, the
    approach and methodology OTS used to assess the thrift’s
    condition, and the regulatory action OTS used to compel thrift
    management to address deficient conditions

•   We interviewed and discussed various aspects of the
    supervision of Superior with OTS officials and examiners to
    obtain their perspectives on the thrift’s condition and the scope
    of the examinations.

•   We interviewed FDIC officials from FDIC’s Division of Risk
    Management Supervision who were responsible for monitoring
    Superior for federal deposit insurance purposes.

•   We assessed OTS’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act. (12 U.S.C. §
    1811 et seq.).

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Superior Bank (OIG-12-017)             Page 14
Appendix 2
Background




History of Superior

Superior Bank (Superior) began operations in 1957 as Warrior
Savings Bank. In February 1998, Warrior Savings Bank changed its
name to The Bank. The Bank acquired four additional banks in
Alabama later that year, and in 1999, acquired Bankers Trust of
Madison. In 2000, the bank became an insured commercial bank
and expanded their holdings in the state of Florida by acquiring
C&I Bank and Emerald Coast Bank. The Bank’s primary regulator
changed from the Federal Deposit Insurance Corporation to the
Federal Reserve Board. In 2002, the bank acquired Citizens Federal
Savings Bank of Port St. Joe.

In January 2005, the founding management team sold their
ownership interest in the bank. The new management team’s
business strategy included rapid growth through acquisition of
institutions, branch purchases and opening new branches. It also
focused on commercial real estate lending as well as origination of
acquisition, development and construction lending. The Bank
became a federally chartered savings bank (thrift) in October 2005,
and subsequently, changed its name to Superior in January 2006.
As a thrift, Superior’s primary regulator was the Office of Thrift
Supervision (OTS).

In November 2006, Superior acquired Community Bank of
Blountsville, Alabama, with approximately $576 million in total
assets. In July 2007, Superior acquired People’s Community Bank
of the West Coast, Florida, with approximately $323 million in total
assets. In the fourth quarter of 2008, Superior’s parent company,
Superior Bancorp, received $69 million under the Department of
the Treasury’s Troubled Asset Relief Program.

Beginning in 2008, Superior’s financial condition rapidly
deteriorated. In 2008, 2009, and 2010, Superior reported net
losses of $161.7 million, $15.2 million, and $262.9 million,
respectively. These losses were attributable to the recognition of a
$160.3 million goodwill impairment charge in 2008 and, in 2009
and 2010, to provisions for loan losses due to the thrift’s
deteriorating loan portfolio.




Material Loss Review of Superior Bank (OIG-12-017)            Page 15
Appendix 2
Background




On April 15, 2011, OTS closed Superior Bank and appointed the
Federal Deposit Insurance Corporation as receiver. At the time of
closure, Superior had assets of $3 billion and retail deposits of
$2.6 billion. It had 73 branches in Alabama and Florida, 24
consumer finance offices in Alabama, and a loan production office
in Florida.

OTS Assessments Paid by Superior

OTS funded its operations in part through semiannual assessments
on savings associations. OTS determined each institution’s
assessment by adding together three components reflecting the
size, condition, and complexity of an institution. OTS computed the
size component by multiplying an institution’s total assets, as
reported on its thrift financial report, by the applicable assessment
rate. The condition component was a percentage of the size
component and is imposed on institutions that have a 3, 4, or 5
CAMELS composite rating. OTS imposed a complexity component
if (1) a thrift administered more than $1 billion in trust assets;
(2) the outstanding balance of assets fully or partially covered by
recourse obligations or direct credit substitutes exceeded $1 billion,
or (3) the thrift serviced over $1 billion of loans for others. OTS
calculated the complexity component by multiplying set rates by
the amounts by which an association exceeds each threshold.
Table 2 shows the assessments that Superior paid to OTS from
2006 through 2011.

Table 2: Assessments Paid by Superior to OTS, 2006–2011
                            CAMELS
                           Composite
Billing Period               Rating              Amount Paid
1/1/2006–6/30/2006                N/A                       $132,032
7/1/2006–12/31/2006                2                         135,530
1/1/2007–6/30/2007                 2                         171,108
7/1/2007–12/31/2007                2                         217,709
1/1/2008–6/30/2008                 2                         259,417
7/1/2008–12/31/2008                2                         264,716
1/1/2009–6/30/2009                 2                         281,372
7/1/2009–12/31/2009                2                         283,925
1/1/2010–6/30/2010                 3                         443,439
7/1/2010–12/31/2010                4                         613,260
1/1/2011–6/30/2011                 4                         588,736
Source: OTS Electronic Continuing Education Folder System



Material Loss Review of Superior Bank (OIG-12-017)                     Page 16
Appendix 2
Background




Number of OTS Staff Hours Spent Examining Superior

Table 3 shows the number of OTS staff hours spent examining
Superior from 2006 to 2011.
     
Table 3: Number of OTS Hours Spent on Examining Superior,
         2006-2011
                                        Number of
 Examination Start Date
                                       Examination
       and Scope
                                            Hours
5/1/2006        -   Limited                             51
9/18/2006       -   Full                             1,527
1/31/2008       -   Full                             2,524
6/22/2009       -   Full                             1,484
4/26/2010       -   Limited                            968
10/12/2010      -   Full                             2,293
 Source: OTS Electronic Continuing Examination Folder System




Material Loss Review of Superior Bank (OIG-12-017)             Page 17
Appendix 3
Management Response




Material Loss Review of Superior Bank (OIG-12-017)   Page 18
Appendix 4
Major Contributors to This Report




J. Mathai, Audit Manager
Angelo Arpaia, Auditor-in-Charge
Daniel Gerges, Auditor
Ken Harness, Referencer




Material Loss Review of Superior Bank (OIG-12-017)   Page 19
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Superior Bank (OIG-12-017)        Page 20
